TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Fiscal Year 2009 Statutory Audit of
                     Compliance With Notifying Taxpayers
                      of Their Rights When Requested to
                        Extend the Assessment Statute



                                       August 3, 2009

                           Reference Number: 2009-30-113




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   August 3, 2009


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Fiscal Year 2009 Statutory Audit of Compliance
                                 With Notifying Taxpayers of Their Rights When Requested to Extend
                                 the Assessment Statute (Audit # 200930005)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) was complying with Internal Revenue Code Section 6501(c)(4)(B), which requires that the
 IRS provide notice to taxpayers of their rights to decline to extend the assessment statute of
 limitations or to request that any extension be limited to specific issues or a specific period of
 time. The Treasury Inspector General for Tax Administration is required to provide information
 annually regarding the IRS’ compliance with this provision. 1

 Impact on the Taxpayer
 The IRS is required to notify taxpayers of their rights when requesting an extension of the statute
 of limitations for assessing additional taxes and penalties. In passing this law, Congress
 expressed concern that taxpayers were not being advised adequately of their rights to refuse to
 extend the statute of limitations or to request that a statute extension be limited to specific issues
 or a specific period of time. Based on the results of our review, we believe that the IRS is
 complying with the intent of the statute. However, there were still some instances in which IRS
 employees did not document whether taxpayers or their representatives were advised of these
 rights. Taxpayers might be adversely affected if the IRS does not follow requirements to notify
 both the taxpayers and their representatives of the taxpayers’ rights related to statute extensions.




 1
     Internal Revenue Code Section 7803(d)(1)(c) (2000 Suppl. 2).
                                  Fiscal Year 2009 Statutory Audit of Compliance
                                  With Notifying Taxpayers of Their Rights When
                                   Requested to Extend the Assessment Statute



Synopsis
The IRS has shown improvement over prior years when documenting that taxpayers were
informed of their rights. The percentage of case files without documentation decreased from
Fiscal Year 2005 to Fiscal Year 2008, remaining the same in Fiscal Year 2009. However, there
were still instances in which there was no
documentation in the related case files to show that
taxpayers were advised of their rights regarding             Cases without documentation
                                                            that taxpayers were informed of
assessment statute extensions. In our statistical sample      their rights decreased from
of 112 tax returns, 7 (6 percent) of the related case      20 percent in Fiscal Year 2005 to
files reviewed did not contain sufficient                    6 percent in Fiscal Year 2009.
documentation that the taxpayers had been advised of
their rights regarding assessment statute extensions.
Our discussion with IRS management officials determined that employees followed IRS
procedures that when a taxpayer asked them to deal with his or her representative, the employees
did so exclusively. Because the taxpayer did not want to be involved in the audit process, the
employees informed only the representative of the taxpayer’s rights. This is consistent with the
IRS position that informing a taxpayer’s representative meets the requirement that the taxpayer
be informed.
In addition, our sample included 67 case files with authorizations for third-party representation.
We found that 7 (10 percent) 2 of the 67 case files did not contain sufficient documentation that
the taxpayers’ representatives were provided with the required notifications. For these cases,
IRS management officials informed us that some employees may have overlooked the fact that
the required information was not documented in the case file or the documents got separated
from the case files.

Response
Although we made no recommendations in this report, we provided IRS officials an opportunity
to review the draft report. IRS management did not provide us with any report comments.
Copies of this report are also being sent to the IRS managers affected by the report conclusions.
Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
Inspector General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.




2
    The actual percentage is 10.45 percent, as described in the calculation in Appendix IV.
                                                                                                     2
                                   Fiscal Year 2009 Statutory Audit of Compliance
                                   With Notifying Taxpayers of Their Rights When
                                    Requested to Extend the Assessment Statute




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          The Internal Revenue Service Has Shown Improvement in
          Documenting That Taxpayers Were Informed of Their Rights....................Page 5
          Some Case Files Did Not Have Documentation That Taxpayers’
          Representatives Were Provided With Copies of the Notification of
          Taxpayer Rights ............................................................................................Page 7

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Outcome Measures...............................................................Page 14
          Appendix V – Prior Audit Reports ...............................................................Page 16
          Appendix VI – Case Review Results by Division ........................................Page 17
         Fiscal Year 2009 Statutory Audit of Compliance
         With Notifying Taxpayers of Their Rights When
          Requested to Extend the Assessment Statute




                 Abbreviations

FY         Fiscal Year
I.R.C.     Internal Revenue Code
IRS        Internal Revenue Service
RRA 98     Restructuring and Reform Act of 1998
                              Fiscal Year 2009 Statutory Audit of Compliance
                              With Notifying Taxpayers of Their Rights When
                               Requested to Extend the Assessment Statute




                                            Background

The Internal Revenue Service (IRS) is required by the IRS Restructuring and Reform Act of
1998 (RRA 98) 1 and the Internal Revenue Code (I.R.C.) 2 to advise taxpayers of their rights when
requesting an extension of the statute of limitations for the assessment of additional taxes and
penalties. When the IRS audits a tax return and
determines that there is an additional tax liability, the
                                                                  The IRS is required to advise
additional tax assessment must generally be processed            taxpayers of their rights when
within 3 years from the date the return was due or from          requesting an extension of the
the date on which the return was actually filed,                  statute of limitations for the
whichever is later. This 3-year assessment statute of           assessment     of additional taxes
                                                                         and penalties.
limitations normally cannot be extended without the
taxpayer’s written consent. 3 To extend the statute, the
IRS generally requests that the taxpayer(s) provide a signed consent form, either Consent to
Extend the Time to Assess Tax (Form 872) or Consent to Extend the Time to Assess
Employment Taxes (Form SS-10). 4
These consents extend the assessment statute of limitations to either a specific period of time or
an unlimited, indefinite period. The statute is usually extended for a period that both the IRS and
the taxpayer agree is reasonable to complete the examination. The consent can also be
negotiated to apply only to certain audit issues.
In passing the RRA 98, Congress expressed concern that taxpayers had not always been fully
aware of their rights to refuse to extend the statute of limitations or to request that a statute
extension be limited to specific issues or a specific period of time. Some taxpayers might
believe that they are required to agree to an extension upon the request of the IRS. Congress
wanted to ensure that taxpayers were informed of their rights to refuse the proposed statute
extension or to have it limited.




1
  RRA 98 Section (§) 3461 (b)(2)(B), Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections
of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and
49 U.S.C.).
2
  I.R.C. § 6501(c)(4)(B).
3
  There are some exceptions to the 3-year statute of limitations. For example, I.R.C. § 6501(c)(1) extends the
assessment statute indefinitely when false or fraudulent returns are filed.
4
  IRS employees who most often request assessment statute extensions are examiners in the various Examination
functions of the business divisions and appeals officers in the Office of Appeals.
                                                                                                           Page 1
                                  Fiscal Year 2009 Statutory Audit of Compliance
                                  With Notifying Taxpayers of Their Rights When
                                   Requested to Extend the Assessment Statute



A taxpayer might agree to extend the assessment statute of limitations for the following reasons:
       •   The taxpayer might want to pursue additional audit issues that are in the taxpayer’s favor
           in offsetting a proposed tax assessment or that might allow for a tax refund.
       •   If the remaining time before the statute expires is too short, the IRS might have to
           prematurely stop the audit process and issue a notice of deficiency that limits the time for
           the normal appeals process before the taxpayer must file a petition with the United States
           Tax Court.
A taxpayer might decide to limit or refuse to extend the assessment statute of limitations
because:
       •   The taxpayer might not want to provide the IRS more time to consider additional audit
           issues.
       •   The taxpayer might not want to allow the IRS the opportunity to further develop audit
           issues already under consideration after the normal statute period has expired.
RRA 98 Section (§) 3461 (b)(2)(B) requires the IRS to “. . . notify the taxpayer of the taxpayer’s
right to refuse to extend the period of limitations, or to limit such extension to particular issues or
                                        to a particular period of time, on each occasion when the
   The RRA 98 requires taxpayers        taxpayer is requested to provide such consent.” To
     to be informed of their rights     implement this statutory requirement, the IRS revised its
    to refuse to extend the period      procedures to direct IRS employees to provide the taxpayer
      of limitations or to limit the    with a Request to Extend Assessment Statute (Letter 907)
      extension to specific issues      or Letter Transmitting Consent Extending Period of
           or a period of time.
                                        Limitation (Letter 967). Included with these Letters should
                                        be the actual consent forms to be signed and Extending the
Tax Assessment Period (Publication 1035). In addition, Federal regulations require that any
notice or other written communication required to be given to a taxpayer in any matter before the
IRS also be given to the taxpayer’s representative (unless restricted by the taxpayer). 5 IRS
employees are instructed to document in their case file activity log whether the taxpayer was
notified of his or her rights each time the IRS requested an assessment statute extension.
The Treasury Inspector General for Tax Administration is required by the RRA 98 to provide
information annually regarding the IRS’ compliance with I.R.C. § 6501(c)(4)(B). This report
presents the results of our tenth annual review of the IRS’ compliance with the statute extension
provisions of the law. 6 As in the previous nine reports, we continued to identify noncompliance
with procedures because documentation was not adequate to support that taxpayers were advised



5
    26 C.F.R. § 601.506 (2002).
6
    See Appendix V for a list of our prior reports.
                                                                                                Page 2
                             Fiscal Year 2009 Statutory Audit of Compliance
                             With Notifying Taxpayers of Their Rights When
                              Requested to Extend the Assessment Statute



of their rights. However, compliance has improved since the IRS revised the various consent
forms and incorporated them into guidelines in response to our Fiscal Year (FY) 2004 report.7
The consent forms were revised to include a prominent statement informing taxpayers of their
rights regarding assessment statute extensions and to provide information about
Publication 1035. In addition, as shown in Figure 1, the revised consent forms include a
statement for the taxpayers’ representatives to sign, confirming that they were notified of their
rights regarding assessment statute extensions and that the taxpayers were made aware of the
same rights.
                                Figure 1: Excerpt From Form 872




Note: The wording in the Form SS-10 is consistent with that shown in Form 872.
Source: IRS Form 872.

This review was performed at the Office of Appeals Headquarters, Large and Mid-Size Business
Division Headquarters, Small Business/Self-Employed Division Headquarters, and Tax Exempt
and Government Entities Division Headquarters in Washington, D.C., during the period
October 2008 through April 2009. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.


7
 Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When Requested to
Extend the Assessment Statute (Reference Number 2004-40-108, dated June 9, 2004).
                                                                                                       Page 3
                         Fiscal Year 2009 Statutory Audit of Compliance
                         With Notifying Taxpayers of Their Rights When
                          Requested to Extend the Assessment Statute



Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                         Page 4
                                            Fiscal Year 2009 Statutory Audit of Compliance
                                            With Notifying Taxpayers of Their Rights When
                                             Requested to Extend the Assessment Statute




                                                  Results of Review

The Internal Revenue Service Has Shown Improvement in
Documenting That Taxpayers Were Informed of Their Rights
Over the past 5 years, the IRS has improved its compliance with requirements for documenting
that taxpayers were informed of their rights to refuse to extend the statute of limitations or to
limit such extension to particular issues or to a particular period of time. Specifically, as shown
in Figure 2, the percentage of case files without required documentation steadily decreased from
FY 2005 to FY 2008. FY 2009 had the same error rate as FY 2008.
      Figure 2: Error Rate – No Documentation That Taxpayer Was Informed

                                      25
              Error Rate Percentage




                                      20

                                      15

                                      10

                                      5

                                      0
                                           2005     2006       2007       2008        2009
                                                            Fiscal Year


       Source: Prior Treasury Inspector General for Tax Administration audit reports (see Appendix V).

For FY 2009, case files for 7 (6 percent) of the 112 tax returns in our statistical sample did not
contain sufficient documentation to indicate whether taxpayers were advised of their rights
before consenting to extend the time to assess tax. In each of the seven cases, the taxpayer’s
representative signed Form 872 or Form SS-10, both of which contain a statement detailing the
taxpayer’s rights regarding extending the assessment statute of limitations. However, there was
no evidence in the case files documenting that the taxpayers themselves were advised of their
rights.
Our discussions with IRS management officials determined that employees followed IRS
procedures that when a taxpayer asked them to deal with his or her representative, the employees
did so exclusively. Because the taxpayer did not want to be involved in the audit process, the
                                                                                                         Page 5
                               Fiscal Year 2009 Statutory Audit of Compliance
                               With Notifying Taxpayers of Their Rights When
                                Requested to Extend the Assessment Statute



employees informed only the representative of the taxpayer’s rights. The IRS believes that
informing a taxpayer’s representative meets the requirement that the taxpayer be informed.
Based on our sample results, from the population of 8,987 tax returns with statute extensions, we
projected that documentation in 264 8 cases was not adequate to show that taxpayers were
advised of their rights. We considered that employees had advised taxpayers of their rights if
any of the required documentation appeared to have been given to the taxpayers or a log entry to
that effect was found in the related case files. The fact that we could not identify the required
documentation in the case file does not mean the taxpayer was not informed of his or her rights.
It means that, from the information available to us, we could not determine if the taxpayer was
informed.

The IRS takes the position that informing only representatives of the taxpayers’
rights meets the intent of the statute
The IRS did not agree with our seven exception cases. IRS management considers that the
requirement was met because in each of the seven cases the taxpayer’s representative was
informed of the taxpayer’s rights. In this and prior reviews, the IRS has taken the position that
notifying a taxpayer’s representative satisfies the requirement to notify the taxpayer. In response
to our FY 2007 report, 9 IRS management stated that:
         The law governing principals and agents provides that the authorized representative acts
         for the principal based on the authority vested in the agent by the principal. Therefore,
         we believe the IRS complies with its statutory obligation if we provide notice to either the
         taxpayer or the taxpayer’s authorized representative.
We believe that the language of the statute and the RRA 98 Congressional Committee report
indicate that the taxpayer must be notified directly. In the Committee Report, Congress
emphasized the need for taxpayers to be fully informed of their statute extension rights, stating
that the Committee is concerned that in some cases taxpayer(s) have not been fully aware of their
rights to refuse to extend the statute of limitations and have felt that they had no choice but to
agree to extend the statute of limitations upon the request of the IRS.
As a result, RRA 98 § 3461 (b)(2)(B) emphasized that the IRS “. . . shall notify the taxpayer. . .
of their rights regarding assessment statute extensions.” This wording was carried over in
I.R.C. § 6501(c)(4)(B), which stated that the “. . . Secretary shall notify the taxpayer of the
taxpayer’s right . . .” to refuse or limit extensions. The Internal Revenue Manual states that
“. . . notification must be made to the taxpayer. . . and the taxpayer’s representative . . .”

8
  This projection is an estimate of the number of exception cases in the population. We are 95 percent confident that
the range is between 74 and 455 cases based on a 6 percent error rate and 2 percent precision. See Appendix IV for
details.
9
  Fiscal Year 2007 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When Requested to
Extend the Assessment Statute (Reference Number 2007-40-167, dated August 31, 2007).
                                                                                                             Page 6
                           Fiscal Year 2009 Statutory Audit of Compliance
                           With Notifying Taxpayers of Their Rights When
                            Requested to Extend the Assessment Statute



The notification process is also explained in Practice Before the IRS and Power of Attorney
(Publication 947), in which the IRS informs the taxpayer:
       If you have a recognized representative, you and the representative will receive notices
       and other correspondence from the IRS. . . . the IRS will send your representative(s) a
       duplicate of all computer-generated correspondence that is sent to you. . . . The IRS
       employee handling the case is responsible for ensuring that the original and any
       requested copies of each manually-generated [sic] correspondence are sent to you and
       your representative(s) in accordance with your authorization.
From the statute, regulations, and IRS procedures and publications, it is clear that the expectation
is for both the taxpayer and the taxpayer’s representative to receive notices, including
notification of the taxpayer’s rights. Although a taxpayer may permit an authorized
representative to receive notification in addition to that provided to the taxpayer, we found no
statutory or regulatory provisions allowing the taxpayer to designate certain individuals to
receive notification instead of the taxpayer.
Taxpayer rights could be negatively affected if the IRS does not comply with the RRA 98 and
follow regulations and IRS procedures requiring that taxpayers be directly notified of their rights
related to extensions to the assessment statute of limitations. However, while we still have a
difference of legal opinion, we are making no recommendation.

Some Case Files Did Not Have Documentation That Taxpayers’
Representatives Were Provided With Copies of the Notification of
Taxpayer Rights
While IRS employees had documented that the taxpayers were informed of their rights and the
taxpayers had signed the extensions, there were still instances in which IRS employees did not
document that the taxpayer’s representative was properly advised of the taxpayer’s rights.
The IRS has generally improved over the years in documenting that taxpayers’ representatives
were informed of the taxpayers’ rights to refuse to extend the statute of limitations or to limit it.
However, as shown in Figure 3, in FY 2009, the error percentage increased.




                                                                                               Page 7
                                              Fiscal Year 2009 Statutory Audit of Compliance
                                              With Notifying Taxpayers of Their Rights When
                                               Requested to Extend the Assessment Statute



     Figure 3: Error Rate – No Documentation That Representative Was Informed

                                        30
                Error Rate Percentage




                                        25

                                        20

                                        15

                                        10

                                        5

                                        0
                                             2005     2006       2007       2008         2009
                                                              Fiscal Year

             Source: Prior Treasury Inspector General for Tax Administration audit reports (see Appendix V).

In our sample of 112 tax returns, 67 case files contained authorizations for third parties to
represent the taxpayers before the IRS. Of these 67 cases, 7 (10 percent) 10 did not contain any
documentation supporting that the taxpayers’ representatives were provided with the required
notifications. From an estimated population of 2,007 cases with authorized representatives, we
estimated that 210 11 case files were not adequately documented to show that the representatives
were notified in advance of taxpayer rights or given copies of written communications advising
taxpayers of their rights. For these cases, IRS management officials informed us that some
employees may have overlooked the fact that the required information was not documented in
the case file or the documents got separated from the case files.
Federal regulations require that once a taxpayer representative has been recognized as such, he or
she must be given copies of all correspondence issued to the taxpayer. This applies to all
computer-generated or manually generated notices or other written communications. Without
the required documentation, we could not determine if the IRS properly notified the taxpayers’
representatives in these seven cases. Taxpayers might be adversely affected if the IRS does not
follow requirements to notify both the taxpayers and their representatives of the taxpayers’ rights
related to statute extensions.
In November 2007, IRS management issued a memorandum to employees to remind them of the
requirement to send notifications to taxpayers’ authorized representatives. Although the

10
  The actual percentage is 10.45 percent, as described in the calculation in Appendix IV.
11
  Based on an estimated population of 2,007, we are 95 percent confident that between 70 and 350 case files were
not documented to show that taxpayers’ representatives were given notification advising taxpayers of their rights
regarding assessment statute extensions. See Appendix IV for additional details.
                                                                                                           Page 8
                         Fiscal Year 2009 Statutory Audit of Compliance
                         With Notifying Taxpayers of Their Rights When
                          Requested to Extend the Assessment Statute



percentage of errors increased from FY 2008, our sample of cases included closed cases in which
the statute of limitations were extended soon after this memorandum and it may be too early to
determine if this memorandum had any effect. Therefore, we are not making any
recommendations this year.




                                                                                        Page 9
                              Fiscal Year 2009 Statutory Audit of Compliance
                              With Notifying Taxpayers of Their Rights When
                               Requested to Extend the Assessment Statute



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

Our overall audit objective was to determine whether the IRS was complying with
I.R.C. § 6501(c)(4)(B), which requires that the IRS provide notice to taxpayers of their rights to
decline to extend the assessment statute of limitations or to request that any extension be limited
to specific issues or a specific period of time. To accomplish this objective, we:
I. Determined whether taxpayers were being advised of their rights when the IRS requested an
   extension of the assessment statute.
    A. Reviewed Internal Revenue Manual memoranda and IRS guidelines to determine whether
       there had been any changes to existing policies and procedures for processing requests to
       extend the assessment statute of limitations since our last audit.
    B. Identified a population of 8,987 combined Business Master File and Individual Master
       File 1 closed examination cases with taxpayer consents to extend the assessment statute of
       limitations processed. The period for the Individual Master File cases was from
       January 1 through June 30, 2008, and for the Business Master File was from January 1
       through October 31, 2008. We validated the Business Master File and Individual Master
       File data by examining a random sample of 50 (25 from each Master File extract) of the
       8,987 records. This random sample was used for data validation and not for projecting or
       reporting results.
        The validation test results demonstrated that the data were reliable and could be used to
        meet the objective of this audit. We developed a statistical sampling plan using a
        95 percent confidence level, an expected error rate of 8 percent, and a precision of
        ±5 percent, which resulted in a minimum sample size of 112 tax returns (closed cases). A
        statistical sample was taken because we wanted to estimate the number of tax returns in
        the population for which taxpayer rights were potentially affected.
    C. Randomly selected a sample of 112 closed cases from the population identified in
       Step I.B. We met our sample size of 112 cases after ordering 533 tax returns to obtain all
       related case files, performing extensive research on IRS computer files, and eliminating
       421 tax returns that either did not meet our criteria 2 or for which we did not receive all


1
  The Business Master File is the IRS database that consists of Federal tax-related transactions and accounts for
businesses. These include employment taxes, income taxes on businesses, and excise taxes. The Individual Master
File is the IRS database that maintains transactions or records of individual tax accounts.
2
  No consent form is required for a return that has the statute date extended for procedural issues. Our criteria
required a signed consent form to be a valid sample case.
                                                                                                         Page 10
                      Fiscal Year 2009 Statutory Audit of Compliance
                      With Notifying Taxpayers of Their Rights When
                       Requested to Extend the Assessment Statute



   the requested tax returns and related case files. In our sample of 112 tax return case files,
   67 had authorizations for third parties to represent the taxpayers before the IRS.
D. Reviewed the 112 selected tax returns and related case files for the necessary
   documentation to verify whether taxpayers and their representatives, if applicable, were
   properly advised of their rights regarding assessment statute extensions and whether the
   revised consent forms were used in the process.
E. Discussed exceptions identified with management officials of the IRS business unit or
   function that had requested the extension for concurrence or an explanation of why the
   IRS believed that proper procedures were followed.




                                                                                        Page 11
                        Fiscal Year 2009 Statutory Audit of Compliance
                        With Notifying Taxpayers of Their Rights When
                         Requested to Extend the Assessment Statute



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Lynn Wofchuck, Audit Manager
Cristina Johnson, Lead Auditor
Doris Cervantes, Senior Auditor
Joseph Snyder, Senior Auditor




                                                                                      Page 12
                        Fiscal Year 2009 Statutory Audit of Compliance
                        With Notifying Taxpayers of Their Rights When
                         Requested to Extend the Assessment Statute



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Chief, Appeals AP
Chief Counsel CC
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Communications and Liaison, Tax Exempt and Government Entities Division
SE:T:CL
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Director, Field Specialists, Large and Mid-Size Business Division SE:LM:FS
Director, Communication and Liaison, Large and Mid-Size Business Division SE:LM:M:CL
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM:CL
       Commissioner, Small Business/Self-Employed Division SE:COM
       Commissioner, Tax Exempt and Government Entities Division SE:T:CL
       Chief, Appeals AP:TP:SS




                                                                                    Page 13
                              Fiscal Year 2009 Statutory Audit of Compliance
                              With Notifying Taxpayers of Their Rights When
                               Requested to Extend the Assessment Statute



                                                                                              Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our current findings
and prior recommendations have had on tax administration (these prior recommendations
continue to provide benefits). These benefits will be incorporated into our Semiannual Report to
Congress.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlement – Potential; 264 taxpayers whose related case files did not
    contain adequate documentation to show that the taxpayers were advised of their rights when
    assessment statutes were extended (see page 5).

Methodology Used to Measure the Reported Benefit:
To determine the number of taxpayers for which documentation was not adequate to support that
the taxpayers were advised of their rights, we electronically identified 8,987 tax returns from the
universe of Business Master File and Individual Master File 1 tax returns (closed cases) for which
the assessment statute was extended. The time periods were January 1 through June 30, 2008,
for statutes extended on Individual Master File tax returns and January 1 through
October 31, 2008, for Business Master File tax returns. We used a 95 percent confidence level,
an 8 percent expected error rate, and a ±5 percent precision to determine our sample size of
112 tax returns.
Because of the difficulty we encountered with obtaining the associated case files for some of
these returns, we requested a total of 533 tax returns for 360 taxpayers for which the assessment
statute was extended. This enabled us to get entire case files (more than one tax return if
necessary) for each taxpayer. After screening through files for 300 taxpayers having 1 tax period
with an extended statute, we met our sample size of 112 tax returns with complete case files that
met our criteria. Some of the cases that we screened did not meet the criteria for a Consent to
Extend the Time to Assess Tax (Form 872) and we needed to eliminate 126 tax returns. 2 The
remaining tax returns and related files did not have complete documentation although they met
our criteria.


1
  The Business Master File is the IRS database that consists of Federal tax-related transactions and accounts for
businesses. These include employment taxes, income taxes on businesses, and excise taxes. The Individual Master
File is the IRS database that maintains transactions or records of individual tax accounts.
2
  No consent form is required for a return that has the statute date extended for procedural issues. Our criteria
required a signed consent form to be a valid sample case.
                                                                                                         Page 14
                               Fiscal Year 2009 Statutory Audit of Compliance
                               With Notifying Taxpayers of Their Rights When
                                Requested to Extend the Assessment Statute



We reviewed the sample of 112 tax returns to determine if taxpayers were advised of their rights
and identified 7 taxpayers (6 percent) for whom the required documentation was not found. This
was the exception rate. However, since we had excluded 126 cases that were received but did
not meet our criteria, we needed to account for those returns when projecting to the population.
As a result, we added those back to the 112 to get to 238 cases. We then took the 7 exceptions
and divided by 238 cases (2.94 percent) and used that percentage to project to the population.
We then multiplied the 2.94 percentage by the population to project the total number of
taxpayers whose case files did not have sufficient documentation (8,987 * 2.94 percent =
264 taxpayers). The range of lower and upper limits was then calculated using the actual error
rate, the actual precision of 2 percent with a 95 percent confidence level. 3

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 210 taxpayers whose related case files were
    not documented to show that the taxpayers’ representatives were given copies of the written
    communications advising taxpayers of their rights regarding assessment statute extensions
    (see page 7).

Methodology Used to Measure the Reported Benefit:
To determine the number of taxpayers for which documentation was not adequate to support that
the taxpayers’ representatives were advised of the taxpayers’ rights, we used the same sample of
112 tax returns and identified 67 files that contained an authorization for a third party to
represent the taxpayer before the IRS. In 7 (10.45 percent) of the 67 case files, there was no
documentation that employees provided the representatives with a copy of the written
communications provided to the taxpayers.
The data we received on the 8,987 population did not contain sufficient information to identify
the number of cases that had representatives in the population. Therefore, we had to estimate the
size of the population of taxpayers that had authorized third-party representatives. This was
accomplished by dividing the number of tax returns in our sample with declarations of
representation by the total tax returns screened for which the assessment statute was executed by
consent (67/300 = 22.33 percent) and then multiplying this percentage by the population to
estimate the number of tax returns for which the assessment statute was executed by consent and
had a declaration of representation (8,987 * 22.33 percent = 2,007 tax returns). Using the
estimated population, we projected the reported error rate (2,007 tax returns * 10.45 percent =
210 [±140] tax returns). 4 The projection was calculated using valid statistical formulas to
determine the variable range of total error returns.

3
  This projection is an estimate of the number of exception cases in the population. We are 95 percent confident that
the range is between 74 and 455 cases based on a 6 percent error rate and 2 percent precision.
4
  Calculated as follows: 2,007 tax returns * ±7 percent (actual precision) = ±140. The lower limit of the range is
210 – 140 = 70 tax returns. The upper limit of the range is 210 + 140 = 350 tax returns.
                                                                                                           Page 15
                         Fiscal Year 2009 Statutory Audit of Compliance
                         With Notifying Taxpayers of Their Rights When
                          Requested to Extend the Assessment Statute



                                                                             Appendix V

                             Prior Audit Reports

The Treasury Inspector General for Tax Administration has previously performed nine
mandatory audits in this subject area. These audits were:
Fiscal Year 2008 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2008-40-127, dated
June 5, 2008).
Fiscal Year 2007 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2007-40-167, dated
August 31, 2007).
Fiscal Year 2006 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2006-40-163, dated
September 21, 2006).
Fiscal Year 2005 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2005-40-112, dated
July 21, 2005).
Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2004-40-108, dated
June 9, 2004).
Fiscal Year 2003 Statutory Audit of Compliance With Notifying Taxpayers of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2003-40-193, dated
September 11, 2003).
Improved Documentation Is Needed to Ensure Taxpayers Are Informed of Their Rights When
Requested to Extend the Assessment Statute (Reference Number 2002-40-175, dated
September 24, 2002).
Most Taxpayers Are Advised of Their Rights Before Signing an Agreement to Extend the
Assessment Statute of Limitations (Reference Number 2001-10-157, dated September 24, 2001).
Information Provided to Taxpayers When Requesting Extensions of the Assessment Statute of
Limitations Can Be Improved (Reference Number 2000-10-142, dated September 29, 2000).




                                                                                      Page 16
